       OFFICE OF INSPECTOR GENERAL

                             Catalyst for Improving the Environment



Ombudsman Report


       Review of Actions at
       Escambia Treating Company Site,
       Pensacola, Florida
       Report 2004-P-00032

       September 30, 2004
Report Contributors:                      Dan Cox
                                          Tom Reilly
                                          Shek Mark
                                          John Richberg
                                          Steve Schanamann




Abbreviations

CATE             Citizens Against Toxic Exposure
CD               Compact Disk
CERCLA           Comprehensive Environmental Response, Compensation, and Liability Act
EPA              Environmental Protection Agency
OIG              Office of Inspector General
ppb              parts per billion
RPM              Remedial Project Manager
TAG              Technical Assistance Grant
URA              Uniform Relocation Assistance and Real Property Acquisition Policies Act




Cover photo: The soil mound cover is inspected at the Escambia site (EPA OIG photo).
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                       September 30, 2004

MEMORANDUM

SUBJECT:            Ombudsman Report:
                    Review of Actions at Escambia Treating Company Site,
                    Pensacola, Florida
                    Report 2004-P-00032

FROM:               Paul D. McKechnie
                    Acting Ombudsman
                    Office of Congressional and Public Liaison

TO:                 Jimmy I. Palmer, Jr.
                    Regional Administrator, Region 4


Attached is our final report on our review of complaints regarding the Escambia Treating
Company Site conducted by the Office of Inspector General (OIG). We undertook this work as a
result of issues brought to the attention of the former Environmental Protection Agency (EPA)
Ombudsman and, subsequently, to the OIG Acting Ombudsman by citizens in the area of the
Escambia site.

This report contains findings and recommendations that describe needed improvements the OIG
has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and the findings contained in this report do not necessarily represent the final EPA
position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.

On August 26, 2004, the OIG issued a draft report to EPA’s Region 4 for review and comment.
However, the Region did not provide a response to the draft report, and we are issuing this report
without comment.

The findings in this report are only applicable for OIG Ombudsman purposes. Additionally,
these findings are not binding in any enforcement proceeding brought by EPA or the Department
of Justice under the Comprehensive Environmental Response, Compensation, and Liability Act
to recover costs incurred not inconsistent with the National Contingency Plan. We have no
objection to the further release of this report to the public.
Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a written
response within 90 days of the final report date. The response should address all
recommendations. For corrective actions planned but not completed by the response date, please
describe the actions that are ongoing and provide a timetable for completion. Reference to
specific milestones for these actions will assist us in deciding whether to close this report in our
assignment tracking system.

If you or your staff have any questions regarding this report, please contact me at
(617) 918-1471 or Dan Cox, the Assignment Manager, at (916) 498-6592.
                    Executive Summary

Purpose
          The Escambia Wood Treating Site in Pensacola, Florida, is one of a number of
          cases transferred by the former Environmental Protection Agency (EPA)
          Ombudsman to the Office of the Inspector General (OIG) in April 2002. The
          Escambia site is an abandoned wood preserving facility where various health
          risks were identified and about 358 households were permanently relocated. The
          specific objectives of our review were to:

          •   Examine the status of cleanup planning at the Escambia Superfund site.

          •   Determine whether the relocation of home owners at the site was conducted
              appropriately and in accordance with applicable guidelines.

          •   Evaluate the effectiveness of community relations activities.

Results of Review
          Cleanup Planning. Overall, we found that EPA took appropriate cleanup
          planning actions at the Escambia Superfund site. EPA plans to conduct a
          remedial action at the site to address the contaminated soil mound and
          contaminated groundwater at the site. We could not provide an opinion on the
          cleanup remedy, since the Agency was in the process of completing feasibility
          studies and the proposed plan is not expected until mid-2005. The State of
          Florida and local community were concerned about delineation of contamination
          and cleanup standards. With the completion of additional soil sampling and
          recent agreement between EPA and Florida regarding cleanup standards, progress
          can now be made on site studies and developing the proposed plan for site
          cleanup. An emergency removal action, which involved excavating soils and
          storing them in a lined and covered area on-site, appears protective and should be
          viable for several more years.

          Relocation of Residents. Overall, the U.S. Army Corps of Engineers effectively
          implemented a very large and complex residential relocation project at the
          Escambia site. The project removed residents from potential health risks and
          re-situated them in replacement homes away from the site. To enhance future
          relocations, Region 4 should continue to require the Corps to provide appraisal
          details to property owners, more closely monitor housing inspections, and allow
          residents a period of time to report replacement housing problems and obtain
          reimbursement for legitimate repairs.



                                            i
        Community Relations. EPA made efforts to inform the community and keep
        them abreast of activities at the Escambia site. The Agency provided fact sheets,
        made periodic visits to update community members, conducted some public
        meetings, and made required administrative record files available at the site
        repository. To bolster community relations in the future, EPA should consider
        reviewing and updating the site Community Involvement Plan, conducting more
        public meetings, and providing compact disks (CDs) and courtesy copies of future
        administrative record documents to community representatives.

Recommendations

        Although EPA was generally taking appropriate actions at the Escambia site, we
        made various recommendations to EPA Region 4 that should enable it to improve
        its efforts related to cleanup planning, relocation of residents, and community
        relations. Region 4 has not yet responded to our recommendations.




                                        ii
                                      Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



 Chapters

          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

          2         Cleanup Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        5

          3         Relocation of Residents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             9

          4         Community Relations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              13




 Appendix
          A         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   19




                                                                   iii
                                Chapter 1
                                 Introduction
Purpose

          The Escambia Wood Treating Site in Pensacola, Florida, is one of a number of
          cases transferred by the former Environmental Protection Agency (EPA)
          Ombudsman to the Office of the Inspector General (OIG) in April 2002. After
          visiting the site and meeting with key stakeholders -- including representatives of
          the City of Pensacola, Escambia County, a local community environmental group,
          Congressman Jeff Miller’s office, and local businessmen -- we decided to review
          concerns regarding cleanup planning, residential relocation, and community
          relations. Specifically, our objectives were to:

          •   Examine the status of cleanup planning at the Escambia Superfund site.

          •   Determine whether the relocation of home owners at the site was conducted
              appropriately and in accordance with applicable guidelines.

          •   Evaluate the effectiveness of community relations activities.

Background

          The Escambia site is an abandoned wood preserving facility, and is comprised of
          26 acres situated in a mixed industrial and residential area. The facility had
          pressure treated wood products, including utility poles and foundation pilings,
          from 1942 until closing in 1982. Until about 1970, coal-tar creosote was used as
          the primary wood preservative. Beginning in 1963, pentachlorophenol was also
          used as a preservative. The facility drained excess preservative from treated
          products along drip tracks before storing the excess in nine storage areas located
          on-site.

          After the facility ceased operations in 1982, it was required to provide
          groundwater monitoring and closure plans, and analyze groundwater samples. In
          September 1985, the facility removed sludge from three surface impoundments
          and shipped them to a hazardous waste facility in Alabama. Various violations
          were observed at the facility, and EPA enforcement actions were taken between
          1985 and 1989.

          After an EPA facility inspection in 1990, the EPA response team determined that
          a removal action was necessary to address contamination at the site. The
          Escambia Treating Company had filed for bankruptcy in 1991 and abandoned the
          site. EPA initiated a removal action in the fall of 1991 and completed it in 1992.
          Contaminated soils at the site were excavated and are presently stockpiled under a

                                           1
secure cover at the site. To take further, permanent actions, EPA placed the
Escambia site on the Superfund National Priorities List in 1994. EPA identified
two operable units at the site: Operable Unit 1, to address contaminant sources,
soils, and control measures at the site; and Operable Unit 2, to address
groundwater contamination from the site.

A Record of Decision for an interim remedial action under Operable Unit 1 was
approved in February 1997. EPA identified health risks due to the presence of
2,3,7,8-TCDD (dioxin) and benzo(a)pyrene (BaP) in portions of the site, which
generated concerns among nearby residents regarding potential adverse health
impacts. The concerns arose, in part, from the visibility of the large stockpile of
highly contaminated soil and two large-scale excavations. The interim action
involved permanently relocating about 358 households from several subdivisions
near the site, demolishing homes, and establishing institutional controls to limit
land use to industrial and commercial use.

Permanent remedies for addressing soil contamination and contaminated
groundwater have not yet been established. EPA expects to issue a proposed plan
by mid-2005 for remediating the site. When the site is cleaned up, plans are being
made to transform the area into a commerce park that will include a mixture of
businesses, such as offices, showrooms, warehouses, and light manufacturing.

A number of local residents affected by the Escambia site established a group
called Citizens Against Toxic Exposure (CATE). The group has received
technical assistance grants from EPA and has hired a technical advisor to review
Agency studies and actions. Although virtually all residents who wanted to move
have been relocated, CATE continues to be involved in the site’s remedy
selection process. The group is concerned that land west of the site had not been
delineated and may have contamination from the site. CATE is also concerned
about the condition of the high density polyethylene cover over the contaminated
soil mound at the site, that the cover might be deteriorating, and that the area is
subject to severe storms and hurricanes that could result in the spread of
contamination. The group also indicated that the Agency’s preferred remedy for
soils and sediments in its draft proposed plan (excavation, solidification, and on-
site burial) was not included and evaluated in a Remedial Investigation/Feasibility
Study. The Five-Year Review report noted that CATE was petitioning EPA to
completely remove on-site and off-site contamination and restore the site to
residential standards.

A grand jury convened by Escambia County during the fall of 2003 conducted an
inquiry into the extent of the area’s groundwater contamination and sources, and
assessed efforts of regulators to protect the area’s groundwater. In a report issued
in April 2004, the grand jury indicated that EPA, the Florida Department of
Environmental Protection, and the Escambia County Utilities Authority failed to
monitor groundwater sufficiently, notify customers and the general public of
water quality violations at multiple wells, restore ground water resources at

                                  2
         Superfund sites, and prevent future contamination. Among other
         recommendations, the grand jury recommended that the U.S. Congressional
         Representative and Senators, working with the Department of Justice, inquire into
         EPA’s failure to restore groundwater resources at Superfund sites in Escambia
         County.

Scope and Methodology

         We generally conducted our review from January through June 2004. We
         examined the files obtained from the former Ombudsman and at EPA Region 4.
         We interviewed various stakeholders, including representatives of the Florida
         Department of Environmental Protection, City of Pensacola, Escambia County,
         CATE, the New Hope Missionary Baptist Church (located adjacent to site), and
         local businesses (including Architectural Specialties, NAI Halford, and Terhaar &
         Cronley). We walked through the site and inspected the protective cover installed
         over the contaminated soil mound, visited the site information repository at the
         West Florida Regional Library, examined site administrative files, evaluated soil
         and groundwater sampling plans, and witnessed some housing demolition at the
         site. We visited Region 4 to review regional site files and interview site Remedial
         Project Managers, Community Involvement Coordinators, and attorneys in the
         Office of Regional Counsel.

         We made several visits to Pensacola, Florida, and Mobile, Alabama (the location
         of the U.S. Army Corps of Engineers office responsible for the relocation), to
         gather pertinent information on issues relating to the Escambia relocation. Our
         activities included interviewing U.S. Army Corps of Engineers representatives,
         reviewing relocation files, and interviewing residents to obtain information
         regarding their relocation experiences.

         Because of concern as to whether the site’s stockpile cap could withstand a
         hurricane, we contacted the Remedial Project Manager in September 2004, to
         determine whether the cap was impacted by Hurricane Ivan when it passed
         through the Pensacola area. No damage to the cap was had been noted during an
         inspection conducted subsequent to the hurricane.

         We performed our review in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States.

         The findings contained in this report are only applicable for OIG Ombudsman
         purposes. Additionally, the findings in this report are not binding in any
         enforcement proceedings brought by EPA or the Department of Justice under the
         Comprehensive Environmental Response, Compensation, and Liability Act
         (CERCLA) to recover costs incurred not inconsistent with the National
         Contingency Plan.




                                          3
4
                                Chapter 2
                            Cleanup Planning
          Overall, we found that EPA took appropriate cleanup planning actions at the
          Escambia Superfund site. EPA plans to conduct a remedial action at the site to
          address the contaminated soil mound and contaminated groundwater. We could
          not provide an opinion on the cleanup remedy, since the Agency was in the
          process of completing feasibility studies. The Agency expects to complete the
          proposed plan for the cleanup remedy by around mid-2005. The State of Florida
          and local community were concerned about some aspects of the cleanup planning,
          including: (1) delineation of contamination, and (2) cleanup standards. With the
          completion of additional soil sampling and recent agreement between EPA and
          Florida regarding cleanup standards, progress can now be made on concluding
          site studies and developing the proposed plan for site cleanup. An emergency
          removal action, which involved excavating soils and storing them in a lined and
          covered area on-site, appears protective and should be viable for several more
          years.

Delineation of Contamination

          The State of Florida and the local community believed that insufficient sampling
          had been conducted to accurately delineate the extent of soil contamination at the
          Escambia site, especially in off-site areas adjacent to the site. Areas sampled, as
          outlined in EPA’s Sampling and Analysis Plan issued in February 2004, included:

          •   The Clarinda triangle area;
          •   The residential neighborhood encompassing Herman Avenue and Pearl Street;
          •   Businesses along Palafox Highway just west of the former Escambia Arms
              apartment complex;
          •   North and east of Solid Waste Management Unit 10; and
          •   Palafox Industrial Park, just south of the Escambia property.

          An OIG environmental scientist evaluated the Agency’s sampling plan. He
          observed that the primary difference between the February 2004 Sampling and
          Analysis Plan, as it pertained to the Clarinda triangle area, and previous sampling
          efforts for this area, was the method of sample location selection. In a previous
          effort, the sample locations were chosen subjectively by the technical consultant
          for the residents. Some samples provided unusable analysis results; for example,
          some were taken underneath asphalt-paved driveways and measured leachate
          from the asphalt. The February 2004 Sampling Plan contains a sampling grid,
          laid out geometrically to include all areas not covered by a building and/or paved
          driveway. The scientist concluded that, presuming that the samples were properly



                                           5
         taken, composited, and analyzed, the analysis results should provide a statistically
         reliable indication of the extent of contamination in the area.

         In addition, results of recent soil sampling indicated that some soils in the
         Clarinda Lane area were contaminated above EPA action levels. As a result, EPA
         issued an Explanation of Significant Differences in June 2004 to modify the
         interim Record of Decision to allow the excavation of contaminated soil
         encountered during the second phase of housing demolition. We believe this was
         an appropriate action.

Cleanup Standards

         Until the spring of 2004, EPA and the Florida Department of Environmental
         Protection had not agreed on the cleanup standards to use in addressing
         contamination at the Escambia site, which delayed progress in developing site
         cleanup plans. EPA standards were based on a property planned for commercial
         or industrial use, since the property is planned to be rezoned commercial/
         industrial. Florida’s cleanup standards for dioxin contamination at the site were
         more stringent than EPA’s. However, EPA eventually accepted Florida’s more
         stringent standards. The following chart summarizes EPA’s and Florida’s
         cleanup standards for dioxin contamination for both industrial and residential-
         level properties.


                                    Dioxin Cleanup Standards

                                     Industrial-level          Residential-level

                 EPA                    5 - 20 ppb                   1 ppb

           State of Florida              .03 ppb                   .007 ppb
          ppb = parts per billion



         The risk assessment for EPA and Florida is based on lifetime excess cancer risk.
         Part of the difference between EPA and Florida standards is in how much risk
         each considers acceptable. EPA appears to be moving to the least protective level
         allowed by the National Contingency Plan of 10-4, or a one in 10,000 acceptable
         lifetime excess cancer risk. Florida prefers 10-6, or a one in 1 million risk.

         Florida passed new risk-based corrective action legislation in June 2003, whereby
         hazardous waste sites in the State are targeted for cleanup based on environmental
         and health risks. Prior to this legislation, only dry cleaners, petroleum, and
         designated Brownfields sites were covered under the State's risk-based corrective
         action planning. The Florida legislation uses a 10-6 risk level for cleaning up all
         contaminated sites, including those contaminated with wood preservatives. The


                                            6
                  new State legislation was the primary factor that prompted the Agency to
                  reconsider the Florida cleanup standards for the planned cleanup of the Escambia
                  site. EPA has now accepted the more stringent Florida industrial standard as an
                  applicable or relevant and appropriate requirement1 for the Escambia site and
                  plans to clean up the site to that level.

Protectiveness of Stockpile Cap Confirmed

                  The OIG environmental scientist inspected the contaminated soil stockpile on
                  February 3, 2004. The stockpile was intended to be a temporary solution to the
                  storage of hazardous waste; when properly maintained, the temporary cap can
                  minimize or exclude rain water from leaching through the cap to groundwater.
                  The scientist said that it was unlikely that any cap, temporary or permanent, could
                  withstand the full force of a category 5 hurricane, but noted that the cap at the
                  Escambia site had already withstood tropical storms without significant damage.
                  When inspected, the cap was in good condition, with no significant damage.
                  Minor cuts in the cap sheeting had been repaired during the past 3 months. Very
                  little ponding of rainwater was evident, indicating that the cap had been properly
                  graded when constructed and little shifting of soil had occurred subsequently.
                  The scientist concluded that, absent hurricane-strength storm events, the cap
                  should be useable for several more years. Furthermore, a Five-Year Review
                  report on the interim remedy, issued in September 2002, concluded that
                  maintenance and limited repairs could keep the high density polyethylene cover
                  functional for at least another 3 to 5 years.

                  The U.S. Army Corps of Engineers inspects the site quarterly and after major
                  storm events, and makes repairs to the cover as needed. In addition to the
                  protective cover, a liner was installed below the soil mound during the removal
                  action in 1991-1992 to prevent contaminated leachate from entering into the soil
                  and groundwater at the site, according to the EPA On-Scene Coordinator.
                  According to the Remedial Project Manager, the U.S. Army Corps of Engineers
                  inspected the Escambia site on September 17, 2004, after Hurricane Ivan had
                  passed through the Pensacola area. The inspectors found the cover had not been
                  damaged, was intact, and remained protective of the environment.

Future Plans for Site

                  After the site has been cleaned up, it is planned to become a commerce park,
                  which will include a mixture of businesses. In addition, two acres are to be set
                  aside for the New Hope Missionary Baptist Church, located adjacent to the site, to
                  provide additional land for parking and church activities, including a day-care


         1
         CERCLA requires that on-site remedies attain any legally applicable or relevant and appropriate
requirements, standards, criteria, or limitations under Federal or more stringent State environmental laws, including
the Resource Conservation and Recovery Act, unless site-specific waivers are obtained.

                                                          7
         center and possibly a community center. The OIG generally agrees with the
         future intended use of the site, based on the industrial-level cleanup planned. At
         this point, we cannot comment on EPA cleanup plans for the site since the
         Agency has not yet developed the proposed plan for the cleanup remedy; the
         proposed plan is not expected to be completed until mid-2005.

Plan Should Address State Comments

         EPA received comments from the Florida Department of Environmental
         Protection on its October 2003 Sampling and Analysis Plan for Phase III of the
         Remedial Investigation. In its comments, Florida requested the installation of
         additional monitoring wells for further delineation of the groundwater plume
         during planned sampling. EPA responded in a November 3, 2003, letter
         indicating that the budget for the Phase III sampling effort was based on the
         number of wells previously discussed during meetings with Florida. The Agency
         left open the possibility of adding additional wells if subcontractor bids for
         installing wells were low enough. However, the Agency did not incorporate
         Florida’s comments and the Agency’s response in a subsequent Sampling and
         Analysis Plan issued in February 2004, and we believe this should be done.

Conclusions

         Now that differences between EPA and Florida regarding cleanup standards have
         been resolved, officials from Florida, the City of Pensacola, and Escambia County
         generally expressed satisfaction with the progress that EPA has been making in
         conducting additional sampling at the site, delineating the extent of
         contamination, and beginning to develop plans for remediating the site. The
         County would prefer that the mound of contaminated soil ultimately be removed
         from the site. The City would like EPA to consider and use a number of
         alternatives for remediating the site, depending on the varying levels of
         contaminants at different parts of the site. We cannot provide an opinion on the
         cleanup remedy, since EPA has not yet developed the proposed plan. Regardless,
         we encourage EPA to continue to emphasize progress at the site, completing the
         feasibility studies during 2004 and the proposed plan by mid-2005.

Recommendation

         We recommend that the EPA Regional Administrator, Region 4:

         2.1    Include State, local government, and community comments and EPA
                responses in future Sampling and Analysis Plans.

         Region 4 has not yet responded to our recommendation.




                                          8
                                         Chapter 3
                              Relocation of Residents
                Overall, the U.S. Army Corps of Engineers effectively implemented a very large
                and complex residential relocation project at the Escambia Superfund site. The
                project removed residents from potential health risks and re-situated them in
                replacement homes away from the site. To enhance future relocations, Region 4
                should continue to require the Corps to provide appraisal details to property
                owners, more closely monitor housing inspections, and allow residents a period of
                time to report replacement housing problems and obtain reimbursement for
                legitimate repairs.

Relocation Offered to Residents

                To safeguard local residents living around the Escambia Superfund site, in a
                February 1997 interim Record of Decision, EPA decided to relocate an estimated
                358 households from several subdivisions. The subdivisions included Rosewood
                Terrace, Oak Park, Goulding, and the Escambia Arms Apartment complex. EPA
                had no formal relocation policy in effect at that time, although the Agency had
                been involved in past relocations.

                Congress enacted Public Law 91-646, the Uniform Relocation Assistance and
                Real Property Acquisition Policies Act (URA) in 1971 to provide for uniform and
                equitable treatment of people whose homes or businesses were acquired under
                Federal and Federally assisted
                programs. The U.S. Department of
                Transportation has been designated
                the lead agency for implementation of
                the URA. Regulations in Title 49,
                Code of Federal Regulations, Part 24,
                provide specific rules for conducting
                permanent relocations. While EPA
                has an interim policy for temporary
                relocations,2 it was not relevant to the
                permanent relocations at Escambia.
                Thus, the Escambia relocation was
                conducted primarily under the URA. A condemned property near the Escambia site
                                                            (EPA OIG photo)

                EPA entered into an interagency agreement in May 1997 under which the
                U.S. Army Corps of Engineers would conduct the relocations. EPA worked with


        2
         Superfund Response Actions: Temporary Relocations Implementation Guidance, Office of Solid Waste
and Emergency Response Directive 9230.0-97, April 2002.

                                                     9
          the Department of Transportation on the basic relocation requirements and with
          the Department of Justice on land acquisition rules. For each household being
          relocated, the government offered the household a choice of (a) selecting one of
          three comparable replacement properties selected by the government, or
          (b) independently finding a replacement house for the government to acquire. In
          addition to the acquisition cost of the property, households were offered up to
          $22,500 in purchase supplements for additional expenses, such as moving
          payments and other incidental expenses.

Not All Residents Satisfied With Relocation

          Some residents who were relocated expressed dissatisfaction. Of the estimated
          358 households relocated, we focused our review on 167 land tracts and excluded
          the approximately 200 residents in the Escambia Arms apartment complex.

          Of the 167 households reviewed, CATE provided the OIG a listing of 29 property
          owners who had expressed some concerns regarding their relocation experiences.
          Of the 29 owners, we were able to contact and interview 22. We found that 13 of
          the 22 property owners indicated they were dissatisfied for various reasons. They
          said the government could have provided more compensation for their properties,
          and also expressed dissatisfaction with their replacement houses due to plumbing,
          electrical, and heating problems, or leaking roofs.

          For the remaining 138 households, we divided them into two basic categories:
          (1) owner-occupied; and (2) not occupied by owner (owner deceased or no longer
          living at property). Following interviews with a number of homeowners, we
          found the following for each category:

                                                    No. of        Owner          Owner Not
                                     No. of        Owners      Satisfied with   Satisfied with
                 Category          Properties    Interviewed    Relocation       Relocation

           Owner-occupied              79             22             12               10
           Not occupied by owner       59             11              6                5

             Totals                   138             33             18               15


          The dissatisfied owners believed they were not adequately compensated for their
          properties and the government did not provide appraisal details. Also, some
          owners indicated they encountered heating and plumbing problems, as well as
          leaking roofs, in their replacement homes. We found the following regarding
          each situation.




                                            10
Compensation and Appraisals

Some property owners believed they were offered less than adequate prices for
their properties, but because of fears that their health was at risk, they had to
accept what was offered. Some held out on their negotiations with the
government and settled for higher amounts than initially offered.

U.S. Army Corps of Engineer appraisers were required to comply with
requirements in the URA (Title 49, Code of Federal Regulations, Part 24) and
Uniform Standards of Professional Appraisal Practice of the Appraisal
Foundation.

In all the case files we examined, the appraisers appeared to follow applicable
guidelines and requirements in appraising the value of each displaced house, and
the Corps followed proper procedures in negotiating fairly with displaced
residents. The appraisals were well documented, with sufficient details on how
appraisers arrived at the fair values of properties. The appraisers used various
available appraisal methods, including comparable resales in the area and
potential rental income levels. We believe the appraisers used the most equitable
method to assign values to properties. Corps appraisal staff had appropriate
training and certification, and typically spent time in Escambia to acquire
knowledge of the locale. They interviewed local realtors and used Multiple
Listing Service real property transaction data. We believe the Corps specifically
followed an EPA requirement to consider the properties “as if clean”; that is, they
were not to consider the effect on the fair market values of properties being near a
Superfund site.

However, we found that how the appraisers derived the results may not have been
clearly conveyed to property owners, resulting in some misunderstanding. It was
not Corps policy at the time of the Escambia relocation to release appraisal details
to property owners. Nonetheless, doing so would have rendered more
transparency, reducing misunderstanding and building trust between the
government and the community. Toward the end of the project, EPA established
a policy of providing the government’s appraisals to land owners, and the Corps
followed that policy for the remaining tracts to be acquired. Also, some residents
indicated that they would have preferred more compensation for their properties.
However, our review indicated the final settlement documents were duly executed
and indicated equitable and acceptable conclusions.

Replacement House Condition

The URA requires that replacement housing be decent, safe, and sanitary.
However, some residents said that they experienced various problems after
moving into their replacement houses. They specifically cited plumbing and
heating problems and leaking roofs.


                                 11
         We visited replacement houses included in our sample and observed that most
         were improvements over previous housing at the Escambia site. We saw signs of
         some problems at a few of the replacement houses, but it was difficult to
         determine whether the pre-move inspections were deficient and the government
         failed to take corrective action. The inspections were generally conducted by a
         contractor, and our review of the inspection reports at the Corps office in Mobile,
         Alabama, indicated that the inspector determined that the replacement houses met
         decent, safe, and sanitary requirements. It appeared that the inspector generally
         applied due diligence and proper procedures and criteria in evaluating the houses,
         determining structural soundness, testing appliances, and checking for plumbing
         leaks or other problems. Where a house required repairs, the Corps ensured that
         the repairs were made before certifying the houses were decent, safe, and sanitary.
         We noted instances in the files of re-inspections before houses were certified.
         However, during discussions, the Corps conceded that some inspections may not
         have uncovered all potential maintenance issues during inspection, and in some
         cases could have been more thorough.

         Some residents believed that the house inspections were deficient because
         problems arose after they had moved into their replacement houses. The
         problems appeared to be primarily maintenance issues relating to heating and
         plumbing. While such issues may be routine maintenance incidental to home
         ownership, the Corps arranged to have the necessary repairs made.

Conclusions

         We determined that, overall, considering the size and complexity, the Corps
         effectively conducted the relocation project. We believe the program was
         implemented successfully and met the primary objective of providing fair and
         equitable treatment of displaced residents. However, we identified some areas
         where improvements could be made to strengthen future relocation projects.

Recommendations

         We recommend that the EPA Regional Administrator, Region 4:

         3.1    More closely monitor the housing inspection process and implement the
                necessary steps to reduce the possibility of maintenance issues surfacing
                after relocated residents have moved into replacement houses.

         3.2    Amend existing relocation policy to allow a period of time during which
                relocated residents can report maintenance issues on their replacement
                housing and seek reimbursement from the government for appropriate
                repair costs.

         Region 4 has not yet responded to our recommendations.


                                         12
                                           Chapter 4
                                 Community Relations
                EPA made efforts to inform the community and keep it abreast of activities at the
                Escambia site. The Agency provided fact sheets, made periodic visits to update
                community members, conducted some public meetings, and made required
                administrative record files available at the site repository. To bolster community
                relations in the future, EPA should consider reviewing and updating the site
                Community Involvement Plan, conducting more public meetings, and providing
                CDs and courtesy copies of future administrative record documents to community
                representatives.

Various Criteria Require Community Outreach

                CERCLA requires that citizens living near Superfund sites be given the
                opportunity to influence cleanup decisions, and that they can express their
                concerns throughout the cleanup process. CERCLA also requires establishment
                of an information repository near each Superfund site and informing the
                community of the repository. The repository should contain a copy of items
                developed, received, published, or made available to the public, including
                information describing the technical assistance grant application process.

                EPA’s Superfund Community Involvement Handbook provides legal and policy
                requirements for community involvement and other suggestions for involving the
                community in the cleanup process. For remedial actions, this generally involves
                keeping the community informed about what is going on, providing local access
                to key documents, informing them about technical assistance grants, meeting with
                them, and responding to their questions about the proposed plan.

                The National Contingency Plan requires that a Community Involvement Plan be
                in place before remedial investigation field activities start.3 The plan is to
                describe the outreach activities that EPA will use to address community concerns
                and expectations, and it to be revised and/or updated every 3 years at a minimum.

Community Relations Activities Undertaken at Escambia Site

                There have been four EPA Community Involvement Coordinators for the
                Escambia site and three Remedial Project Managers (RPMs). The current
                Community Involvement Coordinator has been assigned since April 2004 and the
                current RPM has been involved with Escambia since March 2003. During the last
                4 years, the Community Involvement Coordinators made about six visits to the

     3
         Title 40, Code of Federal Regulations, Section 300.430 (c)(2)(ii) (A-C)

                                                       13
         local community, and have kept the community informed of site plans and
         activities primarily through periodic fact sheets and site updates. In addition, the
         RPMs also periodically meet with community representatives during site visits.
         EPA has held occasional public meetings with the local community to inform
         them of activities at the site.

         EPA established an official site repository for the Escambia Superfund site at the
         West Florida Regional Library in Pensacola, where copies of the site
         administrative record files are maintained. The Agency developed a Community
         Involvement Plan several years ago, and that is available at the repository.

Community Expressed Concerns

         CATE, the local community environmental group, indicated that EPA has not
         adequately kept them informed or responded to community concerns. Further, a
         Florida official noted that, for a time, the State had to act as a go-between with the
         community. The official indicated that EPA was not providing responses to
         community comments. The State then began reviewing the community’s
         comments and including them with the comments that it provided to EPA. Some
         of the key concerns expressed by CATE included the following:

         Public Meetings

         The last time EPA formally met with the community was in June 2003. The RPM
         said EPA does not have the time and resources to conduct public meetings on
         every document or issue that comes out, but does so at all required milestones and
         key decision points. The RPM met with the community in June 2003 to introduce
         herself to community members, answer any questions they had on the planned
         housing demolition, and discuss Phase III of groundwater sampling at the site.
         The RPM did not consider this to be a public meeting. The RPM indicated that
         the last public meeting with the community was conducted by the prior EPA
         RPM. The prior RPM said that this meeting occurred in February 2003. City of
         Pensacola officials also said more interaction is needed between CATE and
         EPA’s RPM, and EPA should provide more fact sheets and hold more joint
         meetings.

         CATE has also expressed concern about being excluded from EPA meetings. For
         example, although CATE requested a meeting with EPA management to discuss
         community concerns on relocation plans, a team dispatched from EPA
         headquarters and Region 4 met only with the U.S. Army Corps of Engineers,
         which was implementing the relocation. The team reported to EPA management
         that the relocation was progressing well, but the community was not given an
         opportunity to voice their concerns. However, although CATE may feel
         excluded, EPA officials said they cannot include the community every time it
         meets to discuss site plans and activities.


                                          14
We agree that EPA’s holding more meetings with the community would be
beneficial, and EPA should attempt to have at least one meeting a year to keep the
community up to date, as well as at all important phases of site remediation (such
as major sampling events and at demolition).

Responsiveness Summaries

CATE expressed concern about EPA’s not providing responsiveness summaries
for Records of Decision in the site repository. These responsiveness summaries
represent EPA’s responses to comments provided by the public regarding drafts
of Records of Decision. For the interim Record of Decision, on the relocation of
residents, we noted that responsiveness summaries were in fact on file at the site
repository. The RPM noted that a Record of Decision has not yet been issued on
the cleanup, which is why there are no responsiveness summaries for that Record
of Decision at this time, and it would be too time consuming for EPA to issue
summaries each time a comment is submitted.

The RPM noted that EPA had provided the Phase III groundwater sampling plan
to CATE, the Florida Department of Environmental Protection, and Escambia
County. After these stakeholders submitted comments on the plan to EPA, the
Agency had provided a combined letter response to all of the stakeholders on
November 3, 2003, in which it addressed each of the comments that had been
submitted.

Availability of Site Documents

CATE expressed concern that the community has not been provided most site
documents. EPA Office of Solid Waste and Emergency Response Directive
9833.3A-1 requires that the Agency provide certain key documents to the public.
These documents include, among others, the Community Involvement Plan,
Remedial Investigation/Feasibility Study Reports, site sampling results, fact
sheets, and scientific and technical data. We found the required documents at the
site repository.

Technical Advisor

CATE indicated that its technical assistance grant (TAG) technical advisor’s
comments were never placed at the site repository. The RPM noted that EPA
reviews and considers the advisor’s comments. However, while the RPM
indicated that EPA is not required to place the comments at the site repository,
EPA TAG program regulations in Title 40, Code of Federal Regulations, Section
35.4185, do in fact require that the Agency send final written products prepared
by communities’ TAG technical advisors to the site repository.

The current RPM acknowledged some communication problems between EPA,
CATE, and CATE’s technical advisor. The RPM said the advisor sometimes did

                                15
          not inform CATE of information requested from EPA, which gave the impression
          that EPA was not keeping CATE adequately informed. To alleviate this problem,
          the RPM has asked that the advisor prepare a request letter in the future and have
          it signed by CATE’s president, so that everyone is aware of what information is
          being requested and provided.

Other Issues Noted

          During our review, we noted that although a copy of the Community Involvement
          Plan for the Escambia site was available at the site repository, the two most recent
          EPA Community Involvement Coordinators did not know that the plan existed.
          The plan was last updated in 1995. The Coordinators should familiarize
          themselves with the plan’s requirements and expectations and update the plan
          every 3 years, at a minimum, as required by the National Contingency Plan.

          Also, while CDs containing the administrative record files were available in
          Region 4, no CDs were available at the site repository. Although the RPM
          indicated that electronic files are not required for the repository, since printed
          copies are available, including the CDs as well would provide an additional,
          convenient, and inexpensive way for community members to access information
          on the site.

          Further, although the Region sent a letter indicating it would respond by
          August 30, 2002, to a resolution adopted by the City of Pensacola in June 2002 on
          plans for cleaning up the Escambia site, the Region never responded to the City.
          While the Agency is not required to respond to such resolutions, the Region
          should provide such a response if it indicates it will do so.

Conclusions

          Overall, we found that EPA has been making efforts to keep the community
          informed and up to date on the status of activities at the Escambia site. EPA has
          provided the community with fact sheets and has made efforts to meet with the
          community. However, EPA could hold more public meetings, and could
          strengthen its communications and community relations activities in the future.




                                           16
Recommendations

        To further strengthen its relations and communications with the local community
        at the Escambia Superfund site, we recommend that the EPA Regional
        Administrator, Region 4:

        4.1    Review the existing Community Involvement Plan for the site and revise
               and/or update the plan every 3 years, at a minimum, as required by the
               National Contingency Plan. Provide a copy of the updated plan to the site
               repository for community access.

        4.2    Continue to hold public meetings at important phases of site remediation,
               (e.g., major sampling events, demolition). The Region should plan to
               conduct a public meeting within the next 3 months, since it has been more
               than a year since the last meeting was held.

        4.3    Provide a courtesy copy of administrative record documents added to the
               site repository in the future to the CATE community group through
               printed copies, electronic files, or web site access.

        4.4    Provide a copy of CDs containing site administrative record files, already
               available in the Region, to the site repository.

        4.5    Provide a copy of the community’s TAG technical advisor’s written
               comments to the site repository as required by EPA regulations.

        4.6    Submit a response to the City of Pensacola, as promised, on the resolution
               the City adopted in June 2002 on Escambia cleanup plans, and in the
               future follow through on responses to stakeholders when a promise to
               respond is made.

        Region 4 has not yet responded to our recommendations.




                                        17
18
                                                                               Appendix A




                                    Distribution

Regional Administrator, Region 4
Region 4 Audit Followup Coordinator
Region 4 Superfund Regional Public Liaison
Director, Waste Management Division, Region 4
Assistant Administrator for Solid Waste and Emergency Response (5101T)
Agency Followup Official (the CFO) (2710A)
Agency Followup Coordinator (2724A)
Audit Liaison, Office of Solid Waste and Emergency Response (5103T)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator for Public Affairs (1101A)
Inspector General (2410)




                                             19
